App. 1
27 Cal.App.5th 1155
Review Granted
Court of Appeal, First District, Division 4, California.
The PEOPLE, Plaintiff and Respondent,
v.
Elio GUTIERREZ, Defendant and Appellant.
No. A153419
|
Filed 10/2/2018
Trial Court: Contra Costa County Superior Court,
Trial Judge: Hon. Charles B. Burch (Contra Costa
County Super Ct. No. 5170563)
Attorneys and Law Firms
Robin Lipetzky, Contra Costa County Public Defender;
Gilbert Rivera, Deputy Public Defender, Anthony
Gedeon for Appellants.
Xavier Becerra, Attorney General; Gerald A. Engler,
Chief Assistant Attorney General; Jeffrey M. Laurence,
Senior Assistant Attorney General; Laurence K. Sullivan, Supervising Deputy Attorney General; Bridget
Billeter, Deputy Attorney General, for Respondents.
Opinion
Tucher, J.
The issue in this case is one that arises every day
in California. A law enforcement officer arresting
someone for driving under the influence (DUI) informs

App. 2
the suspect that he or she must submit to a breath test
or blood test to measure blood-alcohol content (BAC).
If the suspect, faced with this choice between tests,
elects a blood test, must the arresting officer then get
a warrant before having the suspect’s blood drawn?
We conclude no warrant is necessary in these circumstances, under the well-recognized and categorical
exception to the Fourth Amendment’s warrant requirement for a search incident to arrest.
The United States Supreme Court recently applied the search-incident-to-arrest doctrine to BAC
testing in Birchfield v. North Dakota (2016) 579 U.S.
___, [136 S.Ct. 2160], 195 L.Ed.2d 560 (Birchfield).
Birchfield held that a motorist arrested on DUI
charges may be compelled to blow into a machine to
measure the driver’s BAC; the arresting officer needs
no warrant because a breath test is a valid search incident to a DUI arrest. (Id. at p. 2176.) But if instead
the officer directs that the suspect’s blood be drawn for
the same purpose, the officer does need a warrant. A
blood test is more intrusive, and so cannot be justified
under the search-incident-to-arrest exception to the
warrant requirement, Birchfield held. (Id. at p. 2184.)
What Birchfield does not address is how the searchincident-to-arrest exception applies when a suspect is
compelled to undergo BAC testing but given a choice
as to what form that testing takes. We hold that this
element of choice is dispositive, and that if a DUI suspect freely and voluntarily chooses a blood test over a
breath test then the arresting officer does not need a
warrant to have the suspect’s blood drawn.

App. 3
I.

FACTS AND PROCEDURAL BACKGROUND

The district attorney charged Gutierrez with three
misdemeanor counts: driving under the influence of an
alcoholic beverage (Veh. Code, § 23152, subd. (a)), driving with a 0.08-percent BAC (Veh. Code, § 23152, subd.
(b)), and driving a motor vehicle without a valid license
(Veh. Code, § 12500, subd. (a)). Gutierrez moved pursuant to Penal Code section 1538.5 to suppress all evidence obtained from a blood draw administered after
his arrest, arguing that the blood test violated the
Fourth Amendment because the police did not obtain a
warrant.
The evidence at the hearing on defendant’s motion
showed that at approximately 12:30 a.m. on August 24,
2015, Concord Police Officer Justin Wilson was dispatched to a parking lot where a security guard had
observed a red truck “doing a burn-out in the parking
lot spinning its back tires.” Approaching the red truck,
which was then parked, Wilson observed an individual
later identified as Gutierrez asleep in the driver’s seat.
Wilson asked Gutierrez for his driver’s license, and
Gutierrez responded with a Mexican consular identification card instead. Wilson ran a driver’s license check
and learned that Gutierrez had no valid California
driver’s license.
While speaking with Gutierrez, Wilson smelled alcohol on his breath and noticed watery eyes and a
slight slur to his speech. Gutierrez admitted to drinking several beers. With the aid of a Spanish-speaking
police officer to translate, Wilson administered field

App. 4
sobriety tests including a preliminary alcohol screening test. Concluding as a result of this investigation
that Gutierrez had been driving under the influence of
alcohol, Wilson placed him under arrest.
With the assistance of the Spanish-speaking officer, Wilson informed Gutierrez that the law required
him to submit to a blood or breath test. Wilson then
transported Gutierrez to jail, where Gutierrez chose
the blood test.1 A phlebotomist arrived to draw
Gutierrez’s blood, which Gutierrez did not resist. Neither Wilson nor the Spanish-speaking officer ever informed Gutierrez that if he refused both tests, he could
face penalties under California’s implied consent laws.
At the close of the hearing on the motion to suppress, the prosecution argued that police properly administered the blood draw without a warrant because
Gutierrez had consented to the test. The trial court disagreed, finding that the prosecution had not proven
voluntary consent because it had not established that
Gutierrez understood he could refuse the test and face
the consequences. The judge distilled the facts of the
case to this: “what the officer said to Mr. Gutierrez was
the functional equivalent of, [‘]We’re either going to
1

The evidence is conflicting on whether the Spanish-speaking officer accompanied Gutierrez and Wilson to the jail, but it is
uncontested on the central point: the Spanish-speaking officer
translated for Gutierrez while Wilson explained to him the requirement for a breath or blood test, and thereafter Gutierrez
chose a blood test. Gutierrez does not argue that he did not understand the choice between the two tests, only that he was not
informed of his right to refuse both of them.

App. 5
have your breath or we’re going to have your blood.
Take your choice[.’]” Citing Missouri v. McNeely (2013)
569 U.S. 141, 133 S.Ct. 1552, 185 L.Ed.2d 696 (McNeely),
a case that narrows the circumstances justifying a
warrantless blood draw, the court concluded this was
an unconstitutional search and granted Gutierrez’s
motion. The prosecutor had made only passing reference to Birchfield, and the court did not mention the
case in explaining its ruling.
The prosecution appealed, and a divided panel of
the superior court’s appellate division reversed. Although a majority of the panel agreed with the trial
court that Gutierrez had not consented to the blood
draw, a different majority concluded the officer did not
violate the Fourth Amendment because he allowed
Gutierrez to choose between a blood draw and a breath
test. Under Birchfield the police may require a person
arrested on DUI charges to submit to a breath test
without a warrant or consent, the majority reasoned,
so the option for a breath test meant that Gutierrez
was never compelled to submit to a blood draw. The
dissenting judge disagreed on this point: “the fact that
the suspect could have elected a different test method
that does not require a warrant has no effect on the
duty to seek a warrant for a blood draw,” in his view.
Gutierrez petitioned our court for review. We
granted the petition after concluding “that transfer is
necessary to secure uniformity of decision or to settle
an important question of law.” (Cal. Rules of Court, rule
8.1002.)

App. 6
II.

DISCUSSION

A. Warrantless Searches
“Under the Fourth Amendment to the United
States Constitution, a warrantless search is per se unreasonable unless the People prove that the search
comes within a recognized exception to the warrant requirement.” (People v. Meza (2018) 23 Cal.App.5th 604,
609-610, 232 Cal.Rptr.3d 894 (Meza).) Drawing a blood
sample or administering a breath test is a search
(Birchfield, supra, 136 S.Ct. at p. 2173), and in
Gutierrez’s case there was no warrant, so the question
becomes whether any of the well-recognized exceptions
to the warrant requirement justifies this blood draw.
At least three exceptions to the warrant requirement may apply in a DUI case. Each must be analyzed
separately. Exigent circumstances, the exception to the
warrant requirement at issue in McNeeley, is not relevant here, as no party has argued the circumstances of
this case bring it within the exigent circumstances exception. (Cf. McNeeley, supra, 569 U.S. at p. 165, 133
S.Ct. 1552; Meza, supra, 23 Cal.App.5th at p. 611, 232
Cal.Rptr.3d 894.) Consent, the exception to the warrant requirement that the parties addressed at length
in their original briefing before this court, supplies the
rule of decision in a number of recent cases addressing
DUI blood draws, with conflicting results. (See, e.g.,
People v. Balov (2018) 23 Cal.App.5th 696, review
granted Sept. 12, 2018, S249708 (Balov) [consent, although suspect was not told of right to refuse]; People v.
Vannesse (2018) 23 Cal.App.5th 440, 448, review

App. 7
granted Aug. 29, 2018, S249428 [consent, where suspect signed a form giving option to refuse]; People v.
Ling (2017) 15 Cal.App.5th Supp. 1, 222 Cal.Rptr.3d
463 [no consent]; People v. Mason (2016) 8 Cal.App.5th
Supp. 11, 214 Cal.Rptr.3d 685 [no consent].) Search incident to arrest is a third exception to the warrant requirement, and the one primarily at issue in
Birchfield. At our request, the parties submitted supplemental letter briefs addressing this exception.
We conclude that the blood draw in this case requires no warrant under the search-incident-to-arrest
exception. We agree with the appellate panel that the
police may, without a warrant, subject a DUI suspect
to a breath or blood test as long as the suspect, rather
than the arresting officer, is choosing which test to administer. Like the appellate panel, our disagreement
with the trial court is strictly legal, so we exercise independent judgment in reviewing the constitutionality
of the search. (People v. Tully (2012) 54 Cal.4th 952,
979, 145 Cal.Rptr.3d 146, 282 P.3d 173.)
B. Birchfield Comes to California
“The search-incident-to-arrest doctrine has an ancient pedigree.” (Birchfield, supra, 136 S.Ct. at p. 2174.)
It is a “ ‘categorical rule’ ” that “justifies ‘a full search of
the person’ ” upon lawful arrest. (Id. at p. 2176.) In
Birchfield, the United States Supreme Court heard
three consolidated cases, each addressing an aspect of
“how the search-incident-to-arrest doctrine applies to
breath and blood tests incident to [DUI] arrests.” (Id.

App. 8
at p. 2174.) In two of the cases, North Dakota drivers
were directed to take blood tests, and in the third a
Minnesota driver was ordered to take a breath test, all
without warrants. (Id. at pp. 2170-2172.) One of the
three drivers submitted to the test; the other two refused and incurred the attendant penalties. (Ibid.) All
three drivers challenged their searches on Fourth
Amendment grounds, but only the North Dakotans’
challenges succeeded. (Id. at p. 2187.)
Weighing the degree to which a test intrudes upon
an individual’s privacy against the government’s interest in obtaining test results, the Supreme Court
adopted this rule: a breath test may proceed without a
warrant as a search incident to a valid DUI arrest; a
blood test may not. (Birchfield, supra, 136 S.Ct. at pp.
2176, 2185.) The court reasoned “that breath tests do
not ‘implicat[e] significant privacy concerns’ ” and “entail ‘a minimum of inconvenience.’ ” (Id. at p. 2176,
quoting Skinner v. Railway Labor Executives’ Assn.
(1989) 489 U.S. 602, 625-626, 109 S.Ct. 1402, 103
L.Ed.2d 639).) By contrast, blood tests “ ‘require piercing the skin’ ” and “plac[ing] in the hands of law enforcement authorities a sample . . . from which it is
possible to extract information beyond a simple BAC
reading.” (Birchfield, supra, at p. 2178.) The need for
this greater intrusion “must be judged in light of the
availability of the less invasive alternative of a breath
test,” the Supreme Court explained. (Id. at p. 2184.)
The State of North Dakota “offered no satisfactory justification for demanding the more intrusive alternative

App. 9
without a warrant,” and so could not compel a blood
test. (Id. at p. 2184.)
In cases such as Gutierrez’s, California’s statutory
scheme does not demand the more intrusive alternative of a blood test without a warrant. Unlike North
Dakota, where the law enforcement officer determines
which test to administer, in California a DUI suspect
usually is given the choice between a breath test and a
blood test. (Compare N.D. Cent. Code Ann. § 39-20-01,
subd. 2 (2016) (“law enforcement officer shall determine which of the tests is to be used”) with Veh. Code,
§ 23612, subd. (a)(2)(A) [“lawfully arrested . . . person
has the choice of whether the test shall be of his or her
blood or breath”].) Gutierrez was given that choice. For
him, the search consisted of whichever of the two
chemical tests he preferred. If the state can lawfully
require a DUI suspect to take a breath test – and
Birchfield says that it can – then surely the state can
lawfully require the suspect to take that same breath
test or an alternative if he prefers it. That the state
cannot compel a warrantless blood test does not mean
that it cannot offer one as an alternative to the breath
test that it clearly can compel. This was the essential
insight of the appellate panel that led it to reverse the
trial court in this case.
C. Breath-or-Blood Testing
We reach the same conclusion by analyzing from
first principles the search-incident-to-arrest doctrine
and the search to which Gutierrez was subjected. Let

App. 10
us call this search a “breath-or-blood” test, since the arresting officer gave Gutierrez the choice of a breath-orblood test.
Birchfield teaches that to determine whether this
category of search is a valid search incident to arrest,
we must weigh two competing interests: “ ‘ “on the one
hand, the degree to which [the breath-or-blood test] intrudes upon an individual’s privacy and, on the other,
the degree to which it is needed for the promotion of
legitimate governmental interests.” ’ ” (See Birchfield,
supra, 136 S.Ct. at p. 2176, quoting Riley v. California
(2014) 573 U.S. ___, [134 S.Ct. 2473], 189 L.Ed.2d
430 ).) Deductive reasoning compels the conclusion
that the breath-or-blood test intrudes on an individual’s privacy no more than does the breath test, the
less-intrusive option that it includes. Thus, under
Birchfield, the breath-or-blood test “ ‘does not implicat[e] significant privacy concerns’ ” because the breath
test does not. (See id. at p. 2178.) As in Birchfield, “[t]he
need for BAC testing is great,” and weighing this legitimate governmental interest against the intrusion on
privacy, we conclude that the Fourth Amendment permits warrantless breath-or-blood testing, based on the
same calculus that led the Supreme Court to approve
warrantless breath testing. (Id. at p. 2184.)
Gutierrez objects that there is no such thing as a
breath-or-blood test, but only two distinct tests that
encroach on a suspect’s privacy to differing degrees
and are therefore governed by different categorical
rules – a blood test requiring a warrant, and a breath
test not. This is essentially the argument of the

App. 11
dissenting judge on the appellate panel, who opined
that the available option of a breath test had no bearing on the constitutionality of the warrantless blood
draw. We agree with Gutierrez that the search-incident-to-arrest doctrine operates by categorical rule, rather than by weighing the totality of circumstances in
each case anew. (Birchfield, supra, 136 S.Ct. at p. 2176.)
But this categorical approach highlights the importance of getting right the determination of which
category applies. On that issue we disagree with
Gutierrez. We conclude that to analyze this case – or
any case that fits into the broad category of breath-orblood testing – as if it involved merely a blood test is a
category error. From the perspective of the suspect
subjected to a search, there is a material difference between being compelled to take a blood test and being
compelled to take either a breath or blood test, whichever the suspect prefers.
A careful reading of Birchfield shows that the
United States Supreme Court has not yet addressed
the category of cases into which Gutierrez’s fits.
Although the opinion includes broad language that a
blood test may not “be administered as a search incident to” arrest (Birchfield, supra, 136 S.Ct. at p. 2185),
we know that “ ‘ “language in a judicial opinion is to be
understood in accordance with the facts and issues before the court. An opinion is not authority for propositions not considered.” ’ ” (People v. Knoller (2007) 41
Cal.4th 139, 154-155, 59 Cal.Rptr.3d 157, 158 P.3d 731
(internal citations omitted).) The United States Supreme Court never considered whether a blood test

App. 12
could be administered as a search incident to arrest if
a suspect elects it over a breath test, when both are
offered. The defendant who submitted to a blood test
in Birchfield was told that the law required his submission (Birchfield, supra, 136 S.Ct. at p. 2186; see also
Beylund v. Levi (2015) 859 N.W.2d 403), and under
North Dakota law it was the arresting officer, not the
motorist, who had to decide which test to administer.
(N.D. Cent. Code Ann. § 39-20-01(2) (2016).) The same
sentence in Birchfield that announces the rule against
warrantless blood tests grounds this rule on a comparison to the less intrusive alternative of breath testing. (Birchfield, supra, 136 S.Ct. at p. 2185 [“Because
breath tests are significantly less intrusive than blood
tests and in most cases amply serve law enforcement
interests, we conclude that a breath test, but not a
blood test, may be administered as a search incident to
a lawful arrest for drunk driving.”]) California’s statutory scheme completely undermines this rationale. It
creates an entire category of cases in which the DUI
suspect must take a blood test only because he or she
has chosen it over a breath test. Birchfield did not consider this category of cases.
An older case confirms that the availability of options for a DUI suspect may be dispositive in constitutional analysis. In South Dakota v. Neville (1983) 459
U.S. 553, 103 S.Ct. 916, 74 L.Ed.2d 748, the United
States Supreme Court considered whether the Constitution allows a prosecutor to introduce evidence of a
DUI suspect’s refusal to take a chemical test. The defendant in Neville had declined BAC testing at the

App. 13
time of his arrest, protesting “I’m too drunk, I won’t
pass the test,” and he then objected on grounds of selfincrimination to this evidence being used at trial. (Id.
at pp. 555-557, 103 S.Ct. 916.) The court was unmoved.
It concluded the government had not compelled this
communication because it had given Neville a choice to
take the test. (Id. at pp. 562-564, 103 S.Ct. 916.) “[T]he
values behind the Fifth Amendment are not hindered
when the State offers a suspect the choice of submitting to the blood-alcohol test or having his refusal used
against him.” (Id. at p. 563, 103 S.Ct. 916.) Neville conceded, “as he must, that the State could legitimately
compel the suspect, against his will, to accede to the
test. Given, then, that the offer of taking a bloodalcohol test is clearly legitimate, the action becomes no
less legitimate when the State offers a second option of
refusing the test, with the attendant penalties for
making that choice.” (Ibid.) By analogy, Fourth Amendment values are not hindered when the state offers a
suspect the choice between submitting to a warrantless breath test – which the state concededly can compel – and submitting to the more intrusive blood test if
the suspect prefers it.
Gutierrez likened the choice he faced between
breath-and-blood testing to a defendant arrested in his
car for drug possession who is then given a choice between two searches: a warrantless search of his car,
which the Constitution allows (Arizona v. Gant (2009)
556 U.S. 332, 350, 129 S.Ct. 1710, 173 L.Ed.2d 485),
and a warrantless search of his cell phone, which it
does not (Riley v. California, supra, 134 S.Ct. 2473).

App. 14
Counsel argued that if the suspect in this hypothetical
chose the cell phone search, we would not consider it a
valid search incident to arrest even though the suspect
had chosen the cell phone search over a search that
would have been a valid search incident to arrest.
Counsel’s argument is creative, but unpersuasive.
Gutierrez’s hypothetical differs from the breathor-blood test at issue in this case because the category
of car-or-cell-phone testing is a fiction. We cannot imagine, as anything other than an academic exercise,
that the state would routinely put suspects to the
choice in Gutierrez’s hypothetical. A car search and a
cell phone search generally serve different purposes
and yield different kinds of evidence, so law enforcement would likely pursue these two searches independently, rather than treating them as alternatives.
By contrast, California law requires arresting officers
in most DUI cases to treat breath and blood testing as
equally acceptable alternatives. The Vehicle Code
states the suspect “has the choice of whether the test
shall be of his or her blood or breath and the officer
shall advise the person that he or she has that choice.”
(Veh. Code, § 23612(a)(2)(A).)2 It is this statute that
2

The statute also allows the arresting officer to request a
blood test in addition to breath-or-blood testing in certain cases
where the suspect has been arrested for driving under the influence of drugs, or a combination of drugs and alcohol. (Veh. Code,
§ 23612(a)(2)(B) & (C).) The constitutionality of that second test,
where it occurs, can and should be separately analyzed. Also we
note that the Legislature recently amended other portions of Vehicle Code section 23612, but those amendments do not affect this
analysis. (See Assembly Bill No. 2717 (2017-2018 Reg. Sess.).)

App. 15
establishes the category of breath-or-blood testing, because it describes the test an officer should administer
– a breath test or a blood test at the suspect’s election.
No similar statutory or practical rationale creates a
category of car-or-cell-phone testing.
Conceding, as he must, the constitutionality of a
warrantless breath test, Gutierrez would have his act
of choosing a blood test over that breath test trigger
the requirement for a warrant. We fail to see how
Fourth Amendment values are enhanced by requiring
a magistrate to review a warrant application before an
arresting officer can accommodate a suspect’s preference for a particular BAC test.
In the related context of a driver’s license suspension hearing, another Court of Appeal has similarly refused to require a warrant when a suspect chooses
blood testing over a breath test. (See Espinoza v. Shiomoto (2017) 10 Cal.App.5th 85, 215 Cal.Rptr.3d 807.)
When Espinoza was arrested for DUI and offered a
choice between breath and blood testing, she chose the
blood test but insisted it not go forward without a warrant, which the arresting officer declined to procure.
(Id. at p. 94, 215 Cal.Rptr.3d 807.) The Department of
Motor Vehicles suspended Espinoza’s license for refusing the chemical test, and the Court of Appeal upheld
that suspension. (Id. at p. 92, 215 Cal.Rptr.3d 807.)
The court assumed without deciding that Espinoza
was entitled to refuse a warrantless blood test, but because refusing a breath test would justify suspending
her license, the court concluded that her simultaneous
refusal to breath test and to submit to a warrantless

App. 16
blood test supported the license suspension. (Id. at pp.
113, 116, 215 Cal.Rptr.3d 807.) At bottom, the Espinoza court refused, as do we, to require a warrant as
the consequence of a suspect’s own preference for a
blood test.
D. Consent to Additional Intrusion
By opting for the more intrusive procedure,
Gutierrez effectively volunteered for whatever additional intrusion a blood test involves, over and above
the intrusion inherent in a breath test. For this reason,
a suspect who opts for a blood test may be said to consent to the additional intrusion the test entails. But
this is a different question from whether a suspect consents to a chemical test in the first place. Consent to a
search, as a separate exception to the warrant requirement, must be evaluated under the totality of the circumstances. (Balov, supra, 23 Cal.App.5th at p. 701,
233 Cal.Rptr.3d 235.) Here, the parties cite a host of
circumstances to support their respective arguments
as to whether Gutierrez freely and voluntarily consented to the search in this case. We need not consider
many of those facts or resolve the contested issue of
whether Gutierrez consented to a chemical test because there is no question that the arresting officer
gave Gutierrez a choice between breath and blood testing, and that when faced with this much more constrained choice Gutierrez elected the blood draw.

App. 17
The relevant circumstances in this case are those
that establish Gutierrez was lawfully arrested on suspicion of DUI, and that he then freely and voluntarily
exercised the choice California law gives him to take a
blood test instead of a breath test. These are the facts
that bring this blood draw into the category of breathor-blood searches that require no warrant under the
search-incident-to-arrest doctrine. If Gutierrez had not
been presented with a choice between the two tests, or
if he had been presented with a nominal choice but
compelled to take the blood test without freely and voluntarily choosing it over the breath test, then we could
not analyze this search as a breath-or-blood test.
In sum, because Gutierrez chose between the two
types of BAC test (as distinct from choosing whether to
take a chemical test at all), we hold that the search in
this case is properly characterized as a breath-or-blood
test and is justified under the search-incident-to-arrest
exception to the warrant requirement.
DISPOSITION
The judgment of the appellate panel is AFFIRMED.
We concur:
Streeter, Acting P. J.
Reardon, J.

App. 18
IN THE SUPERIOR COURT OF THE
STATE OF CALIFORNIA IN AND FOR
THE COUNTY OF CONTRA COSTA
APPELLATE DIVISION
Appellate Case No. 5-170563-1
Trial Court No. 1-176383-8
PEOPLE OF THE
ON APPEAL
STATE OF CALIFORNIA,
from the
Plaintiff and Appellant,
LIMITED JURISDICTION
Of the
Vs
SUPERIOR COURT
ELIO VICENTE
MARTINEZ
GUTIERREZ,
County of Contra Costa
Defendant and Respondent.
State of California
***AMENDED***
(Filed Dec. 13, 2017)
This cause having been argued and submitted and
fully considered, the Appellate Division rules as follows:
In this DUI case, defendant Gutierrez filed a suppression motion under Penal Code § 1538.5, which was
granted in part and denied in part. Defendant does not
appeal from the partial denial. The People have filed
this interlocutory appeal from the order insofar as it
granted the motion, ordering the suppression of defendant’s blood draw pursuant to Missouri v. McNeely
(2013) 569 U.S. 141. We reverse and remand the case
for further proceedings.

App. 19
A nightclub security guard reported that defendant was driving unsafely in the club’s parking lot and
on Monument Boulevard. The arresting officer (Officer
Wilson) found defendant asleep in the car with the
keys in the ignition. Because defendant speaks only
limited English, most of Wilson’s interaction with defendant in the field occurred through the translation
assistance of another officer who speaks Spanish (Officer Piscino). Wilson noticed objective signs of intoxication, and defendant acknowledged having drunk six
or seven beers. Defendant presented only a Mexican
consular ID, and a check confirmed that defendant had
no California driver’s license. Wilson conducted field
sobriety tests including a PAS, though the results are
not in this record.
The only issue on this appeal is the constitutionality of the warrantless blood draw conducted on defendant. Defendant does not contest that probable
cause existed for a chemical BAC test, but contends
that a warrant was required. The People contend that
defendant consented to the blood draw.
The three judges of this panel adopt three different paths of reasoning to resolution of this appeal. The
bottom-line outcome, however, is clear: The order
granting the suppression motion is reversed, and the
case is remanded for further proceedings.
Judge Landau would reverse. She concludes that
the trial judge applied an incorrect legal standard in
judging whether consent to a chemical test was given
here. Consent must be judged in light of the totality of

App. 20
the circumstances. Here, the trial judge focused only
on a single factor, the absence of any advisement that
the defendant could refuse any BAC test. It is settled
that there is no constitutional requirement of such an
advisement. (E.g. United States v. Drayton (2002) 536
U.S. 194, 202.)
Moreover, Judge Landau concludes that even if
there was no consent to a BAC test, no consent or warrant was required here because defendant voluntarily
chose a blood draw rather than a breath test. Under
Birchfield v. North Dakota (2016) 136 S.Ct. 2160, police
may constitutionally require a DUI arrestee to undergo a chemical BAC test (such as a breath test) without consent or a warrant. Under McNeely, a defendant
may not be required to submit to a blood draw without
consent or a warrant. But defendant here was not required to undergo a blood test. Rather (assuming arguendo that he did not consent generally to submit to
a chemical test), he was required to undergo a chemical
BAC test, but not a blood test; he chose to make that
test a blood draw.
Judge Weil agrees with the trial court’s finding
that there was no consent given here. He further concludes that McNeely establishes a bright-line rule: Absent consent, a blood draw requires either consent, a
warrant, or exigent circumstances. In his view, the fact
that the suspect could have elected a different test
method that does not require a warrant has no effect
on the duty to seek a warrant for a blood draw. Hence,
he would affirm.

App. 21
Judge Treat agrees with the trial court’s finding
that there was no consent given to a chemical BAC
test. He agrees, however, with the second part of Judge
Landau’s analysis. Under Birchfield, a DUI arrestee
may constitutionally be required to submit to a chemical BAC test without consent or a warrant. If a defendant then voluntarily opts for a blood test instead of a
breath test, that does not implicate McNeely’s warrant
requirement, because the defendant is not being compelled to undergo a blood test rather than a breath
test.
The order granting the suppression motion is reversed, and the case is remanded for further proceedings.
/s/ Leslie G. Landau
Leslie G. Landau,
Acting Presiding Judge
/s/ Edward G. Weil
Edward G. Weil, Judge
/s/ Charles S. Treat
Charles S. Treat, Judge

[Clerk’s Certificate Omitted]

[Proof Of Service By Mail Omitted]

App. 22
432 P.3d 536
Supreme Court of California.
PEOPLE
v.
GUTIERREZ
S252532
|
JANUARY 2, 2019
First Appellate District, Div. 4, A153419
Opinion
The petition for review is granted. Further action
in this matter is deferred pending consideration and
disposition of related issues in People v. Arredondo,
S233582 (see Cal. Rules of Court, rule 8.512(d)(2)), or
pending further order of the court. Submission of additional briefing, pursuant to California Rules of Court,
rule 8.520, is deferred pending further order of the
court. The request for an order directing depublication
of the opinion in the above-entitled appeal is denied.
Votes: Cantil-Sakauye, C.J., Chin, Corrigan, Liu,
Cuéllar and Kruger, JJ.

App. 23
447 P.3d 669
Supreme Court of California.
PEOPLE
v.
GUTIERREZ
S252532
|
AUGUST 28, 2019
First Appellate District, Div. 4, A153419
Opinion
Dismissed and remanded to CA 1/4. Review in the
above-captioned matter, which was granted and held
for People v. Arredondo (S233582), is hereby dismissed.
(Cal. Rules of Court, rule 8.528(b)(1).)
Votes: Cantil-Sakauye, C.J., Chin, Corrigan, Liu,
Cuéllar, Kruger and Groban, JJ.

